HHS/OIG-Audit--"Implementation of Financial Accounting Standards Board Statement Number 106, Entitled:"Employers'
Accounting for Postretirement Benefits Other Than Pensions, (A-01-92-00520)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Implementation of Financial Accounting Standards Board Statement Number 106, Entitled: "Employers' Accounting
for Postretirement Benefits Other Than Pensions," (A-01-92-00520)
May 30, 1993
Complete
Text of Report is available in PDF format (1.81 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of our review of the implementation of Financial Accounting Standards Board Statement
Number 106 (FASB 106) relating to postretirement costs. The FASB 106 requires an accounting change from the cash basis
of accounting to accrual basis for costs associated with retirees' health benefits. We found one hospital's cash basis
costs for retirees' health benefits was $3 million annually. However, by implementing accrual basis accounting under FASB
106, this hospital reported a $15 million accrual for postretirement health benefits on its Fiscal Year 1991 financial
statements and Medicare cost report.